Case No. 19-1184

In the
Supreme Court of the United States

NIKKI BRUNI; JULIE COSENTINO; CYNTHIA RINALDI; KATHLEEN
LASLOW;; and PATRICK MALLEY,
Petitioners,

Vv.
CITY OF PITTSBURGH; PITTSBURGH CITY COUNCIL;
MAYOR OF PITTSBURGH,
Respondents.

CERTIFICATION OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that this Brief of
Amicae Curiae contains 4426 words, including footnotes and excluding those
parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 15, 2020 in Ojai, California.

(tbh bo Fe

Catherine W. Short

Counsel of Record for Amicus
Life Legal Defense Foundation
